SIGAR                                        Special Inspector General for
                                              Afghanistan Reconstruction




                                                       SIGAR 14-33 Audit Report




      Afghan National Security Forces: Actions
      Needed to Improve Plans for Sustaining
      Capability Assessment Efforts




                                                               FEBRUARY
                                                                2014
SIGAR 14-33-AR/ANSF Capability Assessments
SIGAR
                                                       February 2014
                                                       Afghan National Security Forces: Actions Needed to Improve Plans
                                                       for Sustaining Capability Assessment Efforts


                                                       SIGAR 14-33 AUDIT REPORT
Special Inspector General for
Afghanistan Reconstruction                             WHAT SIGAR FOUND
                                                       The National Defense Authorization Act for Fiscal Year 2008 directs the
WHAT SIGAR REVIEWED                                    Department of Defense (DOD) to report on its assessment of the operational
                                                       readiness of Afghan National Security Forces (ANSF) units. Specifically, the
Since 2005, Congress has appropriated                  Act requires DOD to report on the number of ANSF units that are capable of
almost $53 billion for the Afghanistan                 conducting operations independently, units that are capable of conducting
Security Forces Fund—the single largest U.S.           operations with U.S. and coalition support, and units that are not ready to
fund for the reconstruction of Afghanistan—to          conduct operations. To help meet this requirement, from April 2010 through
train, equip, and sustain the Afghan National          July 2013, the International Security Assistance Force (ISAF) Joint Command
Security Forces (ANSF). The process of                 (IJC) used the Commander’s Unit Assessment Tool (CUAT) as a key tool for
transferring security responsibility to the            assessing and reporting on the ANSF’s manning, training, and equipping
Afghans is expected to be completed by the             capacity. The CUAT was a two-part assessment of ANSF units. The first part
end of 2014, which will coincide with the              consisted of quantitative data, such as the total number of assigned
completion of the current drawdown of U.S.             personnel and equipment on-hand. IJC advisor teams then used this data to
and coalition forces. The North Atlantic Treaty        inform their qualitative evaluations, the second portion of the CUAT, which
Organization’s Strategic Plan for Afghanistan          consisted of one overall assessment and an assessment of 14 component
calls for the Afghan army and police to                assessment areas. Based on their assessment findings, advisor teams
achieve a combined surge strength of                   assigned one of six color-coded rating definition levels to the ANSF units in
352,000 personnel by the end of 2013, and              each area and provided narrative comments to justify the assigned rating
to remain at that level through at least 2015,         definition levels. From August 2011 to July 2013, these rating definition
to allow for continued progress toward a               levels were (1) independent with advisors, (2) effective with advisors, (3)
sustainable, secure environment in                     effective with partners, (4) developing with partners, (5) established, and (6)
Afghanistan. SIGAR’s prior work and the work           not assessed. CUAT assessments, combined with battlefield reporting,
of others have expressed concern with the              informal commander’s assessments, and other data, served as the basis for
reliability and consistency of ANSF                    DOD’s and ISAF’s overall assessment of the ANSF’s operational effectiveness
assessments. Reliable measures of the                  and readiness during this time.
ANSF’s progress toward becoming a self-
                                                       CUAT rating definition levels for ANSF units assessed from January 2012 to
sustaining force that is capable of assuming
                                                       July 2013 show that there has been some improvement in the ANSF’s
full security responsibility for Afghanistan are
                                                       capacity to man, train, and equip its forces. For example, the number of ANA
critical as the ANSF assume increasing
                                                       units rated as “independent with advisors” increased from 20 to 93 between
responsibility for their country’s security from
                                                       January 2012 and July 2013. However, the number of ANA and ANP units not
U.S. and coalition forces.
                                                       assessed also increased during this time due to the drawdown of coalition
The objectives of this audit were to assess the        forces.
extent to which (1) the International Security
                                                       Between April 2010 and August 2011, IJC changed the CUAT rating definition
Assistance Force’s (ISAF) tool for evaluating
                                                       level titles four times. Despite these changes, SIGAR’s analysis of the
the manning, training, and equipping capacity
                                                       standards supporting each level shows that the standards for the overall
of the ANSF—the Commander’s Unit
                                                       assessment generally remained consistent from change to change. However,
Assessment Tool (CUAT)—was consistently
                                                       the thresholds included in the standards for some of the component
applied to assess ANSF units, and (2) ISAF is
                                                       assessment areas changed in some cases. For example, under the
taking steps to plan for the continued
                                                       September 2010 revision, an ANA unit could achieve a rating definition level
collection, validation, analysis, and reporting
                                                       of “effective with advisors” for equipment if its level of critical equipment was
of ANSF capacity assessments during the
                                                       greater than 85 percent of its authorized equipment level. Under the August
military drawdown and the transition of
                                                       2011 revision, an ANA unit could achieve that same rating definition with
security responsibility to the Afghan
                                                       “greater than or equal to” 75 percent of its authorized equipment level.
government.
                                                       The CUAT Standard Operating Procedure outlined requirements for advisor

       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
teams completing the qualitative evaluation, and encouraged advisor teams to use their judgment when assessing ANSF
units to assign rating definition levels and provide comments within the assessment areas. However, the CUAT Standard
Operating Procedure did not provide clear guidance on the level of detail that is necessary to support a team’s rating or
what the team’s subjective assessments should contain. This unclear guidance led to disparities in the quantity and
quality of information across CUAT assessments and inconsistencies in the evaluations of ANSF units’ capacity to man,
train, and equip its forces.

In July 2013, IJC replaced the CUAT with the Regional ANSF Status Report (RASR). IJC officials stated the command
replaced the system because ISAF senior leadership found the CUAT to be difficult to read, inconsistently applied, and not
useful. In addition, IJC officials expect that the RASR will simplify, streamline, and improve assessments of the ANSF by
allowing the command to better track the extent to which ANSF units’ are able to employ their manning, equipping, and
training capacity, which were the focus of the CUAT, to successfully engage the enemy in combat. The RASR uses six
color-coded rating definition levels—(1) fully capable, (2) capable, (3) partially capable, (4) developing, (5) established,
and (6) not assessed—to evaluate ANSF units at the brigade and regional levels each month. In addition, the RASR
focuses on assessing specific components of the units, such as infantry and communications, against one overall and five
targeted categories: combined arms, command and control, leadership, sustainment, and training. These five targeted
categories replace the one overall assessment and 14 component assessment areas previously used in the CUAT.

As coalition forces draw down and fewer advisor teams are assigned to ANSF units, IJC officials stated they will have less
insight into the ANSF’s capabilities and will rely more on the ANSF for assessment data. Officials stated this will decrease
their overall confidence in ANSF assessments as a whole. IJC, in coordination with the Afghan government, is taking steps
to improve the ANSF’s internal assessment capabilities and discussing ways to mitigate the risks of declining presence
and reduced coalition oversight of the ANSF. For example, in July and August 2013, the Ministry of Interior selected nearly
100 ANP candidates to send to Turkey to learn assessment methodology and develop a new police assessment tool that
would standardize assessments across the ANP. Despite these efforts, ISAF has not developed a plan that details how it
will (1) ensure the continued collection, analysis, validation, and reporting of ANSF capability assessments as coalition
forces drawdown and (2) address the challenges associated with having fewer advisor teams available to conduct
assessments and relying on the ANSF’s processes for conducting its own internal assessments. Without such a plan, ISAF
may not be able to obtain an accurate understanding of ANSF units’ capability—information that feeds into broader
assessment reports on the ANSF’s overall effectiveness and readiness.

                                                                                               WHAT SIGAR RECOMMENDS
                                                                                               SIGAR is making one recommendation.
                                                                                               Specifically, SIGAR recommends that the ISAF
                                                                                               Commander develop and implement a plan for
                                                                                               collecting, validating, analyzing, and reporting
                                                                                               ANSF capability assessments that details how
                                                                                               ISAF will assess the ANSF’s capability with
                                                                                               fewer advisors to conduct the assessments
                                                                                               and mitigate the challenges associated with
                                                                                               the ANSF reporting on its own assessment
                                                                                               results.

                                                                                               In providing comments on a draft of this report,
                                                                                               U.S. Force-Afghanistan stated that it “concurs
                                                                                               with the overall” recommendations,” but “non-
                                                                                               concurs with some specific recommendations.”
                                                                                               SIGAR deleted one recommendation based on
                                                                                               information provided in U.S. Forces-
                                                                                               Afghanistan’s comments. These comments,
                                                                                               along with SIGAR’s responses, are reproduced
                                                                                               in appendix IV.

Note: IJC color coded the CUAT and RASR rating definition levels titles. This table reflects
the command’s color scheme.
Source: IJC response to SIGAR data call, 12/20/2012; IJC meeting with SIGAR, 4/12/13.

      For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
February 5, 2014


The Honorable Charles T. Hagel
Secretary of Defense

The Honorable Dr. James N. Miller
Under Secretary of Defense for Policy

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Forces

Lieutenant General Mark A. Milley
Commander, International Security Assistance Forces
 Joint Command


This report discusses the results of SIGAR’s audit to determine if the International Security
Assistance Force (ISAF) consistently applied its tools for evaluating the manning, training, and
equipping capacity of the ANSF, specifically the Commander’s Unit Assessment Tool. It also
discusses the steps ISAF is taking to plan for the continued collection, validation, analysis, and
reporting of ANSF capacity assessments during the military drawdown and the transition of
security responsibility to the Afghan government. It includes one recommendation to the ISAF
Commander to develop and implement a plan for collecting, validating, analyzing, and
reporting ANSF capability assessments that details how ISAF will assess the ANSF’s capability
with fewer advisors to conduct the assessments and mitigate the challenges associated with
the ANSF reporting on its own assessment results.
U.S. Forces-Afghanistan (USFOR-A) provided comments on a draft of this report. In its
response, USFOR-A stated that it “concurs with the overall recommendations,” but “non-
concurs with some specific recommendations.” We deleted one recommendation from our
final report based on information USFOR-A provided in its comments. USFOR-A’s comments,
along with our responses, are reproduced in appendix IV.
SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended, and
the Inspector General Act of 1978, as amended, and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS



Background .................................................................................................................................................................. 2

Although CUAT Results Show that ANSF Capacity Has Improved, Unclear Guidance Resulted in Inconsistencies
in the Quality of Data Supporting Assigned Rating Definition Levels ....................................................................... 4

DOD Lacks a Plan for Collecting, Validating, Analyzing, and Reporting on ANSF Assessments during the
Drawdown .................................................................................................................................................................... 8
Conclusion.................................................................................................................................................................. 10

Recommendations .................................................................................................................................................... 11
Agency Comments ..................................................................................................................................................... 11
Appendix I - Scope and Methodology ....................................................................................................................... 12
Appendix II - CUAT Qualitative Assessment Areas ................................................................................................... 14
Appendix III - CUAT Rating Definition Levels ............................................................................................................ 16
Appendix IV - Comments from U.S. Forces-Afghanistan .......................................................................................... 17
Appendix V - Acknowledgments ................................................................................................................................ 20


TABLES

Table 1 - CUAT Rating Definition Levels for ANA Units Assessed from January 2012 to July 2013 ....................... 5
Table 2 - CUAT Rating Definition Levels for ANP Units Assessed from January 2012 to July 2013 ....................... 5
Table 3 - History of Changes to CUAT Rating Definition Level Titles, April 2010 to August 2011 .......................... 6

Table 4 - Number of CUAT Assessments Completed during Cycle 14 through Cycle 19 (January 2012 to July
2013) ........................................................................................................................................................................... 9


FIGURES

Figure 1 - Flow of ANSF Assessment Data ................................................................................................................. 4
Figure 2 - CUAT Qualitative Assessment Areas and Topics ..................................................................................... 14

Figure 3 - Overall CUAT Rating Definition Levels Starting in August 2011............................................................. 16




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                                                                  Page i
ABBREVIATIONS

            ANA                      Afghan National Army
            ANP                      Afghan National Police
            ANSF                     Afghan National Security Forces

            CM                       Capability Milestone
            CUAT                     Commander’s Unit Assessment Tool
            DOD                      Department of Defense

            IJC                      ISAF Joint Command
            ISAF                     International Security Assistance Force
            NATO                     North Atlantic Treaty Organization
            RASR                     Regional ANSF Status Report
            USFOR-A                  U.S. Forces-Afghanistan




SIGAR 14-33-AR/ANSF Capacity Assessments                                       Page ii
Since 2005, Congress has appropriated approximately $52.75 billion for the Afghanistan Security Forces
Fund—the single largest U.S. funding resource for the reconstruction of Afghanistan—to train, equip, and
sustain the Afghan National Security Forces (ANSF). 1 For fiscal year 2013, Congress appropriated $5.1 billion
for the fund. The process of transferring security responsibility to the Afghans began in July 2011, and is
expected to be completed by the end of 2014. Concurrent with this transition of security responsibility to the
Afghans, since 2011, U.S. and coalition forces have been decreasing their military forces in Afghanistan and
plan to complete this drawdown process in December 2014. 2 Under the North Atlantic Treaty Organization
(NATO) 3 Strategic Plan for Afghanistan, agreed upon at the Chicago Summit in May 2012, NATO announced its
vision for a new mission to train, advise, and assist the ANSF after 2014, and a political commitment to
provide funding for the ANSF. NATO’s plan calls for the Afghan army and police to achieve a combined strength
of 352,000 personnel by the end of 2013—and to remain at that level through at least 2015—to allow for
continued progress toward a sustainable, secure environment in Afghanistan.
From 2005 to 2010, the International Security Assistance Force (ISAF) used the Capability Milestone (CM) tool
to monitor and report on progress in developing a self-sustaining and capable ANSF by evaluating units in
areas such as personnel, equipment, training, and facilities. In April 2010, ISAF implemented the
Commander’s Unit Assessment Tool (CUAT) to assess the manning, 4 training, and equipping capacity of the
ANSF on a quarterly basis, the results of which contributed to overall assessments of the forces’ operational
effectiveness and readiness.
Reliable measures of the ANSF’s progress toward becoming a self-sustaining force that is capable of assuming
full security responsibility for Afghanistan are critical as the ANSF assumes increasing responsibility for its
country’s security from U.S. and coalition forces. Further, having reliable and consistent measures of the
ANSF’s capacity to man, train, and equip its forces is key to ensuring that decision makers in the United States
and other coalition countries have a clear understanding of the extent to which progress is being made in
developing the forces. Our prior work and the work of others have expressed concern with the reliability and
consistency of ANSF assessments. 5
The objectives of this audit were to assess the extent to which:
       1. ISAF’s tool for evaluating the manning, training, and equipping capacity of the ANSF—the CUAT—was
          consistently applied to assess ANSF units, and
       2. ISAF is taking steps to plan for the continued collection, validation, analysis, and reporting of ANSF
          capacity assessments during the military drawdown and the transition of security responsibility to the
          Afghan government. 6
We did not conduct an independent assessment of the ANSF’s capacity to man, train, and equip its forces.
Rather, we determined whether the tool ISAF used to assess the ANSF’s capacity to man, train, and equip its
forces—the CUAT—provided users with sufficient information to inform decision making.
To accomplish our objectives, we reviewed key Department of Defense (DOD) and ISAF policies and
documents, such as mandated reports and relevant standard operating procedures for conducting ANSF

1 The ANSF consists of the Afghan National Army (ANA) and Afghan National Police (ANP). Currently, the authorized strength of the ANSF is

352,000. In September 2013, the ANA had an assigned force level of 192,595, including 6,778 personnel assigned to the air force, and
the ANP had an assigned force level of 152,336.
2 U.S. and coalition nations plan to end their combat role in Afghanistan by the end of 2014, which will involve the withdrawal of a

significant number of military forces and resources.
3   The United States is one of 28 member countries of NATO.
4   Manning refers to an inventory of personnel at an activity in terms of numbers, grades, and occupations.
5SIGAR Audit 10-11, Actions Needed to Improve the Reliability of Afghan Security Force Assessments, June 29, 2010; U.S. Government
Accountability Office, Afghanistan: Key Oversight Issues, GAO-13-218SP, February 11, 2013; DOD Inspector General, Assessment of the
U.S. Government Efforts to Train, Equip, and Mentor the Expanded Afghan National Police, SPO-2011-003, March 3, 2011.
6 In a separate review, we are examining the methods and tools used to determine ANSF personnel strength and plan to issue a report in

the first half of 2014.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                               Page 1
capacity assessments, with a focus on the CUAT. We reviewed data on CUAT results conducted from April 2011
through July 2013, and analyzed CUAT rating definition levels from April 2010 through July 2013. We
interviewed officials from each of these organizations representing several offices, including ISAF Joint
Command’s (IJC) Campaign Transition Assessment Group. We visited select locations in Kandahar, Helmand,
and Kabul provinces in Afghanistan to meet with coalition advisor teams; observe capacity assessment data
collection, analysis, and verification processes; and review capacity assessment documents, which are
classified. We conducted our work in Kabul, Helmand, and Kandahar provinces in Afghanistan, and
Washington, D.C., from February 2013 to February 2014, in accordance with generally accepted government
auditing standards. A more detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

The National Defense Authorization Act for Fiscal Year 2008 directs DOD to, among other things, report on its
assessment of the operational readiness of ANSF units. 7 Specifically, the Act calls for DOD to report on a
comprehensive set of performance indicators and measures of progress toward sustainable long-term security
and stability in Afghanistan, including the operational readiness status of ANSF units that are (1) capable of
conducting operations independently; (2) capable of conducting operations with the support of the United
States, NATO ISAF forces, or other coalition forces; (3) or not ready to conduct operations. Further, the Act
requires DOD to include in its report a description of:
            “a comprehensive and effective long-term strategy and budget, with defined objectives, for activities
            relating to strengthening the resources, capabilities, and effectiveness of the Afghanistan National
            Army (ANA) and the Afghanistan National Police (ANP) of the ANSF, with the goal of ensuring that a
            strong and fully-capable ANSF is able to independently and effectively conduct operations and
            maintain security and stability in Afghanistan.”
To comply with the Act, DOD provides Congress with its semiannual Report on Progress Toward Security and
Stability in Afghanistan. 8
NATO’s transition strategy rests on supporting an ANSF that is sustainable, of sufficient size, and capable of
securing Afghanistan. A capable and sustainable ANSF will help guarantee that hard-fought security gains in
the country will be preserved. The NATO-led ISAF’s main effort is to facilitate the conditions under which the
ANSF can successfully assume full security responsibility for Afghanistan. As such, NATO is shifting ISAF’s main
efforts from partnering and engaging in combat to advising using teams that train and assist the ANSF at the
tactical and operational levels until Afghan forces are able to conduct operations independently. 9 As ANSF
capabilities improve, ISAF plans to adjust its support levels, allowing the ANSF to move into the operational
lead.
From 2005 to 2010, ISAF used the CM tool to monitor and report on progress in developing a self-sustaining
and capable ANSF by evaluating units in areas such as personnel, equipment, training, and facilities, with
variations in assessment areas between the ANA and ANP. In June 2010, we reported that the CM rating
system created a disincentive for units to achieve the highest rating, CM1, which indicated that the unit was
capable of operating independently. 10 When an ANSF unit attained a CM1 rating, coalition forces withdrew
assistance, such as force protection, supplies, and expertise. As a result, there was an incentive for the unit to
report that it was less capable of operating independently in order maintain coalition assistance. We also


7   Pub. L. No. 110-181, §1230, 122 Stat. 3, 385-90 (2008) (amended 2013).
8   DOD, Report on Progress Toward Security and Stability in Afghanistan, November 2013.
9 According to IJC, the tactical level is concerned with the execution of battles and engagements, such as the Corps, brigade, or kandak. At
the operational level military forces attain strategic objectives through the design, organization, and conduct of campaigns and major
operations, such as National Coordination Centers and Ground Forces Command.
10   See SIGAR Audit-10-11.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                             Page 2
noted in this audit that the CM rating system often overstated unit ratings by relying on misleading quantitative
measures, such as the number of supplies or assigned personnel, and failing to take disparities into account.
For example, some units had a full supply of vehicles but few trained drivers. We also found a lack of quality
control as assessment ratings were reviewed through the chain of command. For instance, ANSF capability
ratings regularly used out-dated information, and high-ranking personnel did not have access to the underlying
assessment reports used to generate the summary rating reports.
In April 2010, IJC introduced the CUAT as its primary tool for specifically assessing the manning, training, and
equipping capacity of ANA and ANP units at the operational level. 11 The CUAT was a two-part assessment of
ANSF units. The first portion of the assessment consisted of quantitative data that ANSF units provided directly
to IJC’s Security Force Assistance Advisor Teams. This quantitative data included the total number of personnel
authorized, assigned, and present-for-duty; equipment authorized, on-hand, and operational; and required and
completed training. 12 IJC’s advisor teams then used this data to inform their qualitative evaluations—the
second portion of the CUAT, which consisted of one overall assessment and 14 component assessment areas.
The qualitative evaluations were the advisor teams’ subjective assessments of the unit’s capacities in several
areas, such as communications, leadership, logistics, operations, and personnel. 13 For example, when
assessing a unit’s leadership, advisor teams were required to comment on leadership’s competence, unit
morale, and whether the ANSF unit’s leaders were present and actively participated in planning and execution
of operations. IJC officials told us this evaluation also allowed coalition advisors to describe the challenges,
strengths, weaknesses, opportunities, and threats ANSF units face. 14
Based on their assessment findings, the advisor teams assigned one of six color-coded rating definition levels
to the ANSF units in each area and provided narrative comments to justify the assigned rating definition levels.
From August 2011 to July 2013, these rating definition levels were (1) independent with advisors (green), (2)
effective with advisors (yellow), (3) effective with partners (orange), (4) developing with partners (red), (5)
established (gray), and (6) not assessed (no color). 15
IJC scheduled CUAT assessments on a quarterly basis. The CUAT assessments helped inform ISAF and the
Regional Commands of current issues regarding the development and sustainment of the ANSF. Military
officials also used these assessments to determine where to place coalition advisor teams. In addition, IJC
used the results of CUAT assessments along with other information, such as battlefield reporting, informal
commander’s assessments, and ISAF’s assessments of the Ministries of Defense and Interior—the ministries
that oversee the ANA and ANP, respectively—to develop an overall assessment of the ANSF’s operational
effectiveness and readiness. This overall assessment was intended to provide stakeholders with a regular
update on the ANSF’s overall progress toward becoming a self-sustaining force that is capable of assuming full
security responsibility for Afghanistan at the end of 2014. NATO and ISAF compiled and reported the results of
these assessments to a wide range of stakeholders, such as the White House, DOD, Congress and NATO, to
inform decision making. Figure 1 demonstrates the process for collecting and reporting ANSF assessments.




11 IJC officials indicated that the strategic level is concerned with national or, in specific cases, alliance or coalition objectives, and includes

the Ministry of Defense, Ministry of Interior, and the ANA General Staff.
12 This audit focused on the qualitative portion of the CUAT. However, during the course of the audit, we identified several weaknesses

affecting the reliability of the quantitative data the ANSF provides ISAF, such as issues associated with manual reporting and low levels of
literacy and numeracy within the ANSF. We plan to issue a subsequent audit report on the reliability of ANSF-provided data, with a focus on
personnel data.
13   See appendix II for a list of the assessment areas and topics included in the qualitative portion of the CUAT.
14   Individual CUAT assessments and ratings are classified.
15   See appendix III for a detailed description of the overall CUAT rating definition level standards implemented in August 2011.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                                   Page 3
               Figure 1 - Flow of ANSF Assessment Data




               Note: CUAT data was typically compiled with other information, such as battlefield reporting and
               commander’s assessments, to develop an overall assessment of the ANSF.
               Source: SIGAR analysis of IJC documents.



ALTHOUGH CUAT RESULTS SHOW THAT ANSF CAPACITY HAS IMPROVED,
UNCLEAR GUIDANCE RESULTED IN INCONSISTENCIES IN THE QUALITY OF DATA
SUPPORTING ASSIGNED RATING DEFINITION LEVELS

CUAT Assessment Results Have Shown that ANSF Capacity Has Improved
CUAT rating definition levels for ANSF units assessed from January 2012 to July 2013 show that there has
been some improvement in the ANSF’s capacity to man, train, and equip its forces. Specifically, the number of
ANA units rated as “independent with advisors” increased from 20 to 93 between January 2012 and July
2013. The number of units “not assessed,” however, also increased from 4 to 121 during that time as
coalition forces have drawn down. The number of ANP units rated as “independent with advisors” has
decreased by 1 between January 2012 and July 2013, and, similar to the ANA, the number of units “not

SIGAR 14-33-AR/ANSF Capacity Assessments                                                                          Page 4
assessed” also increased from 24 to 401. Tables 1 and 2 show a breakdown of the CUAT ratings for ANA and
ANP units assessed from January 2012 to July 2012.
Table 1 - CUAT Rating Definition Levels for ANA Units Assessed from January 2012 to July 2013
                                                                   Rating Definition Level
         Cycle
                               Independent     Effective with    Effective with        Developing with
                                                                                                           Established    Not Assessed
                              with Advisors           Advisors           Partners               Partners

Cycle 14                                20               118                  49                     10             3               4
(Jan–Apr 2012)

Cycle 15                                30               135                  39                     11             1              51
(Apr–Jul 2012)

Cycle 16                                41               127                  35                      7             1              81
(Jul–Oct 2012)

Cycle 17                                40               134                  19                      7             2             100
(Oct 2012–Jan 2013)

Cycle 18                                67               108                  17                      4             1             115
(Jan–Apr 2013)

Cycle 19                                93                 89                  8                      2             3             121
(Apr–Jul 2013)

Note: This data reflects the CUAT rating definition levels implemented in August 2011.
Source: SIGAR analysis of IJC data.

Table 2 - CUAT Rating Definition Levels for ANP Units Assessed from January 2012 to July 2013
                                                                          Rating Definition Level
          Cycle
                                  Independent with           Effective              Effective       Developing
                                                                                                                  Established   Not Assessed
                                           Advisors     with Advisors        with Partners        with Partners

Cycle 14                                        65               168                     81                 23             5              24
(Jan–Apr 2012)

Cycle 15                                        49               130                     61                 31             6             131
(Apr–Jul 2012)

Cycle 16                                        71               101                     45                 15             3             301
(Jul–Oct 2012)

Cycle 17                                        43                86                     26                  3             2             347
(Oct 2012–Jan 2013)

Cycle 18                                        57                80                     14                  0             1             363
(Jan–Apr 2013)

Cycle 19                                        64                43                       8                 1             0             401
(Apr–Jul 2013)

Note: This data reflects the CUAT rating definition levels implemented in August 2011.
Source: SIGAR analysis of IJC data.



SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                            Page 5
CUAT Rating Definition Levels Changed Four Times, but the Standards for Each
Level Generally Stayed Consistent
Since the CUAT’s inception in 2010, IJC has changed the CUAT rating definition levels four times. According to
IJC officials, the changes were necessary because, over time, rating definition levels had become artificially
inflated, and officials conducting the assessments had a limited understanding of the differences between
rating definition levels. Officials stated the new levels would better enable IJC to determine when a particular
ANSF unit no longer needs coalition assistance, allowing the command to reassign advisor teams to less
developed or newly formed units. Table 3 shows the changes to the CUAT rating definition level titles from April
2010 to August 2011.

Table 3 - History of Changes to CUAT Rating Definition Level Titles, April 2010 to
August 2011




Note: IJC color coded the CUAT rating definition level titles. This table reflects the command’s color
scheme as it changed those titles.
Source: IJC response to SIGAR data call, 12/20/2012; IJC meeting with SIGAR, 4/12/13.

Our analysis of the CUAT rating definition levels showed that although IJC used four different rating definition
level titles—the September 2010 change maintained the July 2010 rating definition levels, but changed the
color coding—the standards supporting each level for the overall assessment generally remained consistent
from change to change. However, the thresholds included in the standards for the 14 component assessment
areas changed in some cases. For example, under the September 2010 revision, an ANA unit could achieve a
rating definition level of “effective with advisors” for equipment if its level of critical equipment was greater
than 85 percent of its authorized equipment level. Under the August 2011 revision, an ANA unit could achieve
that same rating definition with “greater than or equal to” 75 percent of its authorized equipment level,
representing a decrease in the amount of equipment required. In other cases, the thresholds increased. For
example under the April 2010 rating definition levels, an ANP unit could achieve a rating definition level of
“dependent on coalition forces for success”—the third highest rating definition level—for training if greater than
33 percent of personnel had undergone basic training. Under the subsequent revision in July 2010, this unit
would have had to have at least 50 percent of personnel complete basic training to maintain a third tier rating
definition level, which had changed to “effective with assistance.”




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                    Page 6
IJC Did Not Provide Advisor Teams with Guidance on the Level of Detail Required To
Support ANSF Unit Rating Definition Levels Assigned Using the CUAT
As previously noted, the CUAT was a two-part assessment of ANSF units that consisted of quantitative data that
ANSF units provided directly to IJC’s advisor teams and the advisor teams’ qualitative evaluations of the units
on one overall assessment and 14 component assessment areas. The CUAT Standard Operating Procedure
outlined requirements for advisor teams completing the qualitative evaluation, and encouraged advisor teams
to use their military judgment when assessing ANSF units to assign rating definition levels and provide
comments within the assessment areas. However, the CUAT Standard Operating Procedure did not provide
specific criteria defining the level of detail that was necessary to support a unit’s assigned rating definition
level or what these subjective portions of the assessment should contain. In addition, the fragmentary
orders 16—issued at the beginning of each CUAT cycle to provide advisor teams with timelines for conducting
the assessments and submitting their reports—did not clearly describe the level of detail for advisor teams to
include in the comments supporting their assigned rating definition levels. 17 Further, some regional commands
interpreted the CUAT Standard Operating Procedure for completing the qualitative portion of the CUAT
differently. This lack of clear guidance led to inconsistencies in the narrative comments included in the
qualitative evaluations of ANSF units. For example, IJC officials told us that advisors in Regional Command-
North commonly provided succinct responses, such as a “yes” or “no,” to the qualitative topics without
additional details. In contrast, advisors in Regional Command-West provided detailed responses that
sometimes did not address the individual topics. Further, IJC officials stated that some advisor teams’
comments only partially responded to the assessment topics.
IJC officials also stated there was a tendency for new advisor teams to rate ANSF units lower than their
immediate predecessors. Officials told us this was because new teams approached assessments without
access to the observations the prior teams had made over time, resulting in varying rating definition levels. To
address this issue, some regional commanders took it upon themselves to review assessments before
approving the results, in order to avoid decreases in unit rating definition levels that were not supported with
appropriate justification. As an additional control, officials told us IJC reviewed all unit assessments that
resulted in a change in rating definition level. As part of this review, the command examined the justification in
the narratives to ensure it supported the rating change. If the justification did not support the rating change or
was not clear to the reviewer, IJC solicited additional information from the responsible advisor team. IJC
officials stated that in cases in which a unit’s ratings were not changed, they did not review the assessments
due to limited manpower and the volume of assessments submitted each cycle.


IJC Replaced the CUAT with a New Assessment System in July 2013
The IJC replaced the CUAT with a new monthly assessment system, known as the Regional ANSF Status Report
(RASR), in July 2013. 18 According to IJC’s Commanding General, the CUAT was replaced because it was
inconsistent and not useful to leadership. The RASR is intended to improve upon the CUAT by allowing IJC to,
for example, (1) better track the extent to which ANSF units are able to employ their capacity—manning,
equipping, and training, which were the focus of the CUAT—to successfully engage the enemy in combat in an
effort to measure the capability of those units; (2) adapt advisor teams to resource constraints; and (3) better
assess the varying branches of the ANSF. The RASR uses six color-coded rating definition levels—(1)
independent with advisors (green), (2) effective with advisors (yellow), (3) effective with partners (orange), (4)
developing with partners (red), (5) established (gray), and (6) not assessed (no color)—to assess ANSF unit

16 A fragmentary order is a military order used to send timely changes of existing orders to subordinate and supporting commanders while

providing notification to higher and other applicable commands.
17 The fragmentary orders issued for each CUAT reporting cycle are classified. Therefore, we could not report on the specific contents of the

orders.
18 With the exception of what we are reporting, much of the information on the RASR is currently classified. Therefore, we could not report

specific data and guidance at the time we completed our review.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                             Page 7
capabilities at the brigade and regional levels on a monthly basis. 19 In addition, the RASR will focus on
assessing specific ANA and ANP components, such as infantry and communications, against one overall and
five targeted categories—combined arms, command and control, leadership, sustainment, and training—
depending on the individual component, rather than the one overall assessment and 14 component
assessment areas in the CUAT’s qualitative evaluation. IJC officials stated the RASR is more focused than the
CUAT because it targets fewer units with greater consistency by assessing the same units each month. This
approach, IJC officials stated, allows the command to better identify trends in unit capabilities, in contrast with
the CUAT, with which advisor teams assessed units on a quarterly cycle but did not necessarily assess every
unit each quarter. In addition, according to U.S. Forces-Afghanistan’s (USFOR-A) comments on a draft version
of this report, IJC issued a fragmentary order on September 30, 2013, with specific instructions on the
information advisor units are to include in the comments supporting their assigned rating in each category for
the assessed unit. USFOR-A’s comments also noted that IJC conducts a quality control check of every narrative
to ensure adequate information is provided.


DOD LACKS A PLAN FOR COLLECTING, VALIDATING, ANALYZING, AND
REPORTING ON ANSF ASSESSMENTS DURING THE DRAWDOWN

As noted, IJC has shifted its ANSF unit-level assessment from focusing on capacity, as was done under the
CUAT, to focusing on units’ capabilities under the RASR. Although ISAF is taking some steps to mitigate the
risks associated with decreased insight into the ANSF’s capability as the military drawdown continues, ISAF has
not developed a formal plan that details how it will ensure the continued collection, validation, analysis, and
reporting of accurate, reliable, and useful ANSF assessment data during this time. IJC plans to assign fewer
advisor teams to the kandak-level of the ANA, focusing instead on advising at the higher brigade and corps
levels. 20 Similarly, IJC will be assigning fewer advisor teams at the ANP provincial headquarters, instead
planning to focus its advising efforts on the regional headquarters level. 21 Thus, the ANSF will have a steadily
decreasing number of advised units, which will result in a reduction in the number of assessments conducted.
IJC experienced the negative impact of the decrease in the number of IJC advisor teams on the number of
ANSF units assessed when it still used the CUAT. From January to April 2012, IJC advisor teams assessed 98
percent of ANA units. During that same time period the following year, advisor teams only assessed 63 percent
of ANA units. Table 4 shows the declining number of CUAT assessments completed from January 2012 through
July 2013.




19 When IJC developed these rating definition levels in July 2013, the command initially intended to use them under the CUAT. This would

have constituted a fifth change in the CUAT rating definition levels since April 2010. However, the command did not implement this change
under the CUAT, instead opting to use these rating definition levels when it introduced the RASR.
20 Combat forces form the basic operational arm of the ANA and are divided into six corps and one division, each responsible for a specific

part of Afghanistan. Each ANA corps or division is made up of one to four brigades, and each brigade typically consists of six kandaks. A
kandak consists of approximately 800 soldiers and is the Afghan equivalent to a U.S. Army battalion.
21 According to IJC, the command will advise the Afghan Uniformed Police at the “Type A” headquarters, which are regional headquarters

that recently replaced the zone headquarters structure but reside in the same six provinces as the zone headquarters.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                            Page 8
           Table 4 - Number of CUAT Assessments Completed during Cycle 14 through Cycle 19
           (January 2012 to July 2013)




           Note: CUAT assessments were conducted on a quarterly basis.
           a Estimated. IJC expects the total number of ANA and ANP units in Cycle 19 to remain the same as Cycle 18 and up to a 10

           percent decrease in the number of assessed units, due to a reduction in the number of advisor teams during Cycle 19.
           Source: SIGAR analysis of ISAF data.

Further, IJC officials told us that as ISAF continues to draw down and advises a decreasing number of ANSF
units, their “overall confidence in the overall assessment of the ANSF as a whole decreases.” According to
these officials, as assessment information collected loses fidelity, ISAF’s ability to maintain its current level of
insight into the ANSF’s capabilities will decrease, resulting in the need to rely more heavily on the Afghans for
both the quantitative and qualitative portions of the assessments.
ISAF is currently working with the ANSF to ensure that timely, accurate, and mutually beneficial information can
be collected and transmitted throughout the ANSF command structure. This effort is intended to facilitate the
ANSF’s ability to effectively track and manage its own training and readiness status and to assess itself in an
effort to ensure that it can sustain these assessments beyond 2014. For example, IJC’s ANSF Internal
Assessment Mechanism information papers—which provide updates on efforts to improve the quality and
reliability of assessments as reporting shifts to the ANSF—report that as coalition forces decline and insight
into ANSF units reduces, IJC is working to enhance ANSF internal assessments by October 2014. Enhanced
internal assessments will enable IJC to shift from advisor team reporting to ANSF reporting. Internal
assessments are not new to the ANSF, as the ANA implemented its Readiness Reporting System in April 2005,
and the ANP implemented its Force Readiness Report in December 2010. However, IJC reports that these
ANSF readiness systems are complicated, out of date, poor at assessing or measuring effectiveness, and
lacking in true measures of literacy, leader qualifications, operational and sustainment systems effectiveness,
and long-term sustainability. IJC, the NATO Training Mission-Afghanistan, and the International Police
Coordination Board are coordinating with the ANSF to refine the systems to make them more efficient, user-
friendly, and compatible with the reporting needs of the international community. 22
IJC also reports that operational planning teams meet regularly to work to improve effectiveness of these
systems. The teams’ goal is for the coalition to be confident in the adequacy of the ANSF reports produced
under these systems by October 2014. In addition, IJC’s ANSF Internal Assessment Mechanism paper
indicates that the command plans to conduct three validation checks of the reliability of the Afghan internal
readiness reports by comparing the results ANA’s Readiness Reporting System and the ANP’s Force Readiness
Report against the results of the RASR. IJC conducted the first check in August 2013, and plans to conduct the
second check in February 2014, and the third check in August 2014. According to IJC officials, the command
received the ANSF’s internal assessments data for the August 2013 validation check in October 2013, and
plans to complete its analysis of this data by the end of December 2013.
According to officials, because IJC will increasingly rely on the ANSF’s reporting, the command is working with
the ANA and ANP to develop the Afghan government’s ability to conduct internal assessments at the


22 The NATO Training Mission-Afghanistan is tasked with overseeing training and equipping of Afghan forces throughout Afghanistan. The

International Police Coordination Board acts as the main coordination board for institutional and police reform within Afghanistan.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                        Page 9
operational level. For example, IJC officials told us that the ANA created 168 tashkil 23 positions for literate
officers to conduct assessment reporting for their own units. In addition, in July and August 2013, the Ministry
of Interior selected nearly 100 ANP candidates to send to Turkey to learn assessment methodology and
develop a new police assessment tool with the goal of standardizing assessments across the ANP. 24
Despite these efforts, ISAF does not have a formal plan that details how it will ensure the continued collection,
validation, analysis, and reporting of accurate, reliable, and useful ANSF capability assessment data as
coalition forces drawdown. U.S. Central Command and Joint Staff officials expressed concern over the ability of
coalition forces to continue to collect useful ANSF data during and after the drawdown. U.S. Central Command
officials told us they meet with ISAF and NATO counterparts biweekly to discuss and mitigate pending
assessment challenges, such as resourcing, accountability, and reliability of data that will arise from reduced
coalition force levels in Afghanistan. They also informed us that a task list designed to mitigate some of these
challenges was developed following a November 2012 Afghanistan Assessments Conference. The task list
identifies nine discreet tasks, including developing a plan for collecting data for ANSF assessments and
continuing to develop the Ministry of Defense’s and the Ministry of Interior’s assessment abilities. In addition,
IJC officials stated that ISAF is considering alternatives for the continued assessment of ANSF units, such as
using advisor teams to conduct spot assessments of particular ANSF units. The use of spot assessments had
not been confirmed or documented at the time we completed our review.
The National Defense Authorization Act for Fiscal Year 2008, as amended, requires DOD to report on a long-
term, detailed plan for sustaining the ANSF. This plan is to include defined objectives and any actions taken to
assist the Afghan government in establishing strong ANSF readiness assessment tools and metrics, and the
results of these actions. 25 DOD’s 2010 sustainment plan included actions taken to continue assessment of
the ANSF based on recommendations from the Commander of ISAF. 26 However, because a drawdown had not
been announced at the time of the 2010 plan issuance, that sustainment plan did not consider the possible
impact on the ability of coalition forces to collect, analyze, verify, or report ANSF assessments with fewer
available resources. DOD and ISAF officials told us they have not developed a successor to the 2010
sustainment plan that addresses the collection, analysis, verification and reporting of ANSF assessments
during the drawdown. 27
Because ISAF will have fewer available coalition teams and be relying increasingly on ANSF-provided
information, it is important for ISAF to have a plan detailing how it will assess the ANSF’s capability and
address the challenges associated with the ANSF reporting its own assessment results. Without a plan for
collecting, validating, analyzing, and reporting on ANSF assessments during the military drawdown, ISAF may
not be able to obtain an accurate understanding of ANSF units’ capability—information that feeds into broader
assessment reports on the ANSF’s overall effectiveness and readiness. 28


CONCLUSION

As IJC increasingly focuses its efforts on assessing the capability of ANSF units at the brigade and regional
levels using its new RASR assessment system in place of the CUAT, it is imperative that IJC develop plans that
were lacking under the CUAT in order to better ensure that the RASR will provide consistent and reliable

23   The tashkil is the Afghan government’s official list of required ANA and ANP personnel by position and rank.
24Candidates for the ANP assessment training course in Turkey will include 30 police officers from the Ministry of Interior as well as an
additional 68 police officers—2 from each province.
25   Pub. L. No. 110-181, §1231, 122 Stat. 3, 390-91 (2008) (amended 2013).
26   ISAF ultimately tasked IJC with undertaking these assessments.
27 Although DOD’s reports to Congress in April 2012 and November 2013 include reporting on ANSF assessment efforts, DOD and ISAF
officials did not identify either of these as a successor to the April 2010 sustainment plan.
28 DOD officials told us that they are awaiting strategic direction from the President regarding the post-2014 Security Force Assistance

mission’s strength and structure before planning can begin.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                           Page 10
reporting of the ANSF’s capability. As ISAF forces draw down and transition to a more advisory role—rather than
partnering with the ANSF to jointly engage in combat—the United States and its coalition partners will have
fewer of their own advisors conducting assessments and will have to rely increasingly on the ANSF to conduct
its own assessments. This will introduce new challenges into the assessment process, including more limited
ISAF oversight of Afghan capability assessment efforts. With the security transition scheduled to be completed
by the end of 2014, there is a narrow window of opportunity for coalition forces to implement a plan that will
help enable the continued collection, validation, analysis, and reporting on the status of the ANSF’s manning,
training, and equipping capability. Without such a plan, decision makers in the United States, other coalition
countries, and the Afghan government may not have reasonable assurance that the ANSF is making progress
toward becoming a self-sustaining force that is capable of assuming full security responsibility for Afghanistan
after the transition is completed in December 2014. Further, without an updated plan DOD may not be able to
make fully informed decisions based on ANSF capability


RECOMMENDATIONS

To ensure that assessments of the ANSF continue during and after the drawdown of U.S. and coalition military
forces in Afghanistan, we recommend that the Commander of the International Security Assistance Force:

    1. Develop and implement a formal, written plan for collecting, validating, analyzing, and reporting on
       ANSF capabilities that details how ISAF will
             a.   assess the ANSF’s capability with fewer advisors to conduct the assessments and
             b.   mitigate the challenges associated the ANSF reporting its own assessment results.


AGENCY COMMENTS

U.S. Forces-Afghanistan (USFOR-A) provided written comments on a draft of this report, which, along with our
responses, are reproduced in appendix IV. USFOR-A concurred with the “overall” recommendations of our audit
report, but also stated that it did not concur with “some” specific recommendations. In addition, IJC provided
us informal comments on a draft of this report, which we have incorporated, as appropriate.
Our draft report recommended that the Commander of the International Security Assistance Force develop and
issue guidance—by the end of April 2014—that provides clear instruction on the level of detail advisor teams
are to include in the comments supporting their assigned rating definition levels for the ANSF units they
assess. USFOR-A did not concur with this recommendation, calling it “unnecessary.” Specifically, USFOR-A
noted that IJC issued a fragmentary order with specific instructions on the information the advisor units are to
include in the comments supporting their assigned rating in each category for the assessed unit. This
fragmentary order directs that each comment should focus on answering three questions, the answers to
which “provide not only the what, but the why behind the issues that need addressing by the coalition and
confirm the accuracy of the [Regional Command’s] assessment of a particular unit.” USFOR-A further stated
that IJC conducts a quality control check of every narrative to ensure adequate information is provided. Based
on USFOR-A’s comment and the referenced fragmentary order, we agree that the recommended guidance has
already been provided to the advisor units and, therefore, we have deleted this recommendation and revised
the report as appropriate.
Regarding our recommendation to develop and implement a formal, written plan for collecting, validating,
analyzing, and reporting on ANSF capabilities, USFOR-A stated that “IJC will work with ISAF to codify all ongoing
efforts into a single document that acts as an overarching roadmap of the way ISAF intends to retain the
capability of assessing the progress of the ANSF now and in the future.” It appears that the creation of such a
document would mostly satisfy our recommendation. We will follow up with USFOR-A to review this document
once it is complete and determine at that time whether our recommendation has been implemented.

SIGAR 14-33-AR/ANSF Capacity Assessments                                                                  Page 11
APPENDIX I - SCOPE AND METHODOLOGY

The objectives of this audit were to assess the extent to which (1) the International Security Assistance Force’s
(ISAF) tool for evaluating the manning, training, and equipping capacity of the ANSF—the Commander’s Unit
Assessment Tool (CUAT)—was consistently applied to assess ANSF units, and (2) ISAF is taking steps to plan for
the continued collection, validation, analysis, and reporting of ANSF capacity assessments during the military
drawdown and the transition of security responsibility to the Afghan government. We did not conduct an
independent assessment of the ANSF’s capacity to man, train and equip its forces. Rather, we determined
whether the tools ISAF used to assess the ANSF’s capacity to man, train, and equip its forces provided users
with sufficient information to inform decision making.
To assess the extent to which ISAF’s tool for assessing the manning, training, and equipping was consistently
applied, we reviewed the National Defense Authorization Act for Fiscal Year 2008, as amended, which directs
the Department of Defense (DOD) to report on the capabilities of the ANSF. 29 We also reviewed the April 2010
United States Plan for Sustaining the Afghanistan National Security Forces, the NATO security force assistance
model, the DOD Report on Progress Toward Security and Stability in Afghanistan, and the Joint Center for
International Security Force Assistance Afghan National Security Forces (ANSF) Advisor Guide. 30 We reviewed
the CUAT Standard Operating Procedure, fragmentary orders, and current and past rating definition levels used
to assess ANSF capacities. We reviewed CUAT results and summary data from April 2011 through July 2013. In
addition, we analyzed CUAT rating definition level titles and supporting standards from April 2010 through July
2013 in order to determine the extent to which the standards changed as the titles changed. To do this, we
listed all of the standards for each rating definition level, compared them against each other, and identified
consistencies and inconsistencies. Individual assessments are classified, and as a result, we could not provide
specific information contained in them. We visited select locations in Kandahar, Helmand, and Kabul provinces
in Afghanistan to meet with coalition advisor teams; observe capacity assessment data collection, analysis,
and verification processes; and review capacity assessment documents, which are classified. We reviewed
preliminary information, such as fragmentary orders and a decision brief, on the Regional ANSF Status Report,
ISAF Joint Command’s (IJC) new assessment system that replaced the CUAT. We also reviewed a prior SIGAR
audit on ANSF assessments, 31 and reports and testimonies produced by other audit agencies. 32 We
interviewed officials from the Office of the Under Secretary of Defense for Policy, the Office of the Joint Chiefs
of Staff, U.S. Central Command, the IJC Campaign Transition Assessment Group, and the ISAF Afghan
Assessments Group. We also visited Security Force Assistance Advisor Teams in Regional Commands South,
Southwest, and Capital to obtain additional perspectives on the collection, validation, analysis, and reporting of
CUAT assessments. 33
To assess the extent to which ISAF is taking steps to plan for the continued collection, validation, analysis, and
reporting of ANSF capacity assessments during the military drawdown and transition of security responsibility,
we reviewed the 2010 United States Plan for Sustaining the Afghanistan National Security Forces, the NATO
security force assistance model, the DOD’s reports to Congress on the progress toward security and stability in
Afghanistan, and the November 2012 Afghanistan Assessments Conference Report and task list. We also
reviewed NATO’s Combined Joint Statement of Requirements, version 13.0, which outlines NATO’s required

29   Pub. L. No. 110-181, §§1230-1231, 122 Stat. 3, 385-391 (2008) (amended 2013).
30   Joint Center for International Security Force Assistance, Afghan National Security Forces (ANSF) Advisor Guide (Version 2), April 2013,
31   SIGAR Audit 10-11, Actions Needed to Improve the Reliability of Afghan Security Force Assessments, June 29, 2010.
32 U.S. Government Accountability Office, Afghanistan: Key Oversight Issues, GAO-13-218SP, February 11, 2013; DOD Inspector General,

Assessment of the U.S. Government to Train, Equip, and Mentor the Expanded Afghan National Police, SPO-2011-003, March 3, 2011;
U.S. Government Accountability Office, Statement of Charles M. Johnson and Sharon L. Pickup, Afghanistan Security: Long-standing
Challenges May Affect Progress and Sustainment of Afghan National Security Forces, GAO-12-951T, July, 24, 2012; DOD Inspector
General, Statement of Ambassador (Ret.) Kenneth P. Moorefield, Afghan National Security Forces and Security Lead Transition: The
Assessment Process, Metrics and Efforts to Build Capacity, July 24, 2012.
33   We attempted to visit additional advisor teams in Regional Commands North and West, but were restricted due to weather and security.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                             Page 12
staffing levels for its advising mission, among other things. In addition, we interviewed officials from IJC, the
Office of the Under Secretary of Defense for Policy, the Office of the Joint Chiefs of Staff, and U.S. Central
Command.
We did not use or rely on computer-processed data for the purposes of the audit objectives. With respect to
assessing internal controls, as part of our first objective, we reviewed the CUAT Standard Operating Procedure
and fragmentary orders to determine whether they provided sufficient to instructions to advisor teams
completing the assessments. The results of our review are included in the body of this report.
We conducted our audit work in Kabul, Helmand, and Kandahar provinces in Afghanistan, and Washington,
D.C., from February 2013 to February 2014, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. This audit was performed by SIGAR under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended.




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                     Page 13
APPENDIX II - CUAT QUALITATIVE ASSESSMENT AREAS

Under the Commander’s Unit Assessment Tool (CUAT), International Security Assistance Force Joint Command
advisor teams assessed the Afghan National Security Forces according to one overall assessment with 14
component assessment areas. Each area included a series of topics for advisors to comment on to support the
assigned the CUAT rating definition level. Figure 2 lists the CUAT’s qualitative assessment areas and topics for
the advisors to comment on.

Figure 2 - CUAT Qualitative Assessment Areas and Topics




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                Page 14
Source: Commander’s Unit Assessment Tool Standard Operating Procedure (SOP), CIDNE Version 2.1.8.0.3, IJC ANSF Assessments,
February 26, 2013.




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                 Page 15
APPENDIX III - CUAT RATING DEFINITION LEVELS

Using the Commander’s Unit Assessment Tool (CUAT), International Security Assistance Force Joint Command
advisor teams assessed the Afghan National Security Forces (ANSF) according one overall assessment and 14
component assessment areas. CUAT rating definition levels are the overall subjective rating of these 15 areas
based on the advisor teams’ assessment. Figure 3 shows descriptions of the overall CUAT rating definition
levels that were in effect from August 2011 to July 2013.

        Figure 3 - Overall CUAT Rating Definition Levels Starting in August 2011




        Notes: QRF=quick reaction force; MEDEVAC=medical evacuation; GIROA=Government of the Islamic Republic of
        Afghanistan; OCC P=Operational Coordination Center Provincial; and OCC R=Operational Coordination Center
        Regional.
        Source: Commander’s Unit Assessment Tool Standard Operating Procedure (SOP), CIDNE Version 2.1.8.0.3, IJC ANSF
        Assessments, February 26, 2013.




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                 Page 16
APPENDIX IV - COMMENTS FROM U.S. FORCES-AFGHANISTAN



                                                      HEADQUARTERS
                                       United States Forces- Afghanistan (USFOR-A)
                                                       Kabul, Afghanistan
                                                        APO AE 09320

             REPLY TO
             ATTENTION OF:

             USFORA-DCG                                                                                24 January 2014


             MEMORANDUM FOR: SPECIAL INSPECTOR GE ERAL for AFGIIANISTA
             RECONSTRUCTION (SIGAR), Crystal City, Virginia 22202

             SUBJECT: USFOR-A Concurrence with Comments to SIGAR Draft Audit Report 14-x, "Afghan                           See SIGAR
              ational Security Forces: Actions ceded to Improve Capability Assessments and Plans for Sustaining
                                                                                                                            comment 1.
             Assessment Efforts", dated January 2014


             I. USFOR-A acknowledges and appreciates SIGAR's recognition of the difficulties in assessing the
             Afghan National Security Forces (ANSF) as Coalition Forces draw down. This is a challenge that both
             ISAF and USFOR-A are addressing through a series of efforts directed toward both the ANSF and
             Coalition Forces, as alluded to within the body of the SIGAR Report. US FOR-A concurs with the overall
             recommendations of the SIGAR 14-x Audit Report, however non-concurs with some specific
             recommendations and provides the comments below for further consideration and clarification.

             2. SIGAR Recommendations:

                 I. Develop and issue guidance - by the end of April2014 - that provides clear instruction on
                    the level of detail advisor teams are to include in the comments supporting their assigned
                    rating definition levels for the ANSF units they assess.

                      USFOR-A non-concurs with this specific recommendation as unnecessary. IJC FRAGO 244,
                      issued on 30 September 2013 , contains specific instructions on the information the advisor units
                      arc to include in the comments supporting their assigned rating in each category for the assessed
                      unit.                                                                                                  See SIGAR
                                                                                                                             comment 2.
                      The FRAGO (mentioned previously by COMIJC in his letter to the SIGAR on 19 October 20 13)
                      directs each comment to focus on answering three questions. The answers to these questions
                      provide not only the what, but the why behind the issues that need addressing by the coalition and
                      confirm the accuracy of the RC's assessment of the particular unit. The answers to these directed
                      questions also provide COMIJC and COM ISAF the necessary information to allocate scarce
                      resources and make necessary decisions. Additionally, IJC conducts a quality control check on
                      every narrative to ensure adequate information is provided.

                 2.   Develop and implement a formal, written plan for collecting, validating, analyzing, and
                      reporting on ANSF capabilities that details bow lSAF will:

                      a. Assess the ANSF's capability with fewer advisors to conduct the assessments and
                      b. Mitigate the challenges associated with the ANSF reporting its own assessment results.

                      IJC will work with JSAF to codify all of the ongoing efforts into a single document that acts as an    See SIGAR
                      overarching road map of the way ISAF intends to retain the capability of assessing the progress of
                      the ANSF now and into the future.
                                                                                                                             comment 3.


                                                    NATOiiSAF UNCLASSIFIED




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                      Page 17
            SUBJECT: Non-concurrence with the recommendations of the SIGAR 14-x Audit Report


            3. SJGAR' s report is focused on the Commander's Unit Assessment Tool (CUAT), which is a report that    ..-----...1...-,
            has not been in use since June 2013 . While the Regional ANSF Status Report (RASR), and the CUAT
            before that, provides a common and recurring foundation for making assessments of the ANSF, the final     See SIGAR
            assessment is a combination of a number of reports, both qualitative and quantitative, to include         comment 4.
            commander' s updates. Any external review of lSAF' s and IJC's ability to assess the ANSF must take
            these other mechanisms into account in order to provide informative and relevant feedback.

            4. Point of Contact for this memo is COL (OF-5) Ronald McNamara, IJC Inspector General, DSN: -
                      email:                                         or COL (OF-5) Wesley Jennings, Director,
            IJC Campaign and Transition Assessment Group, DSN:                email:




                                                           ~G-·
                                                           MARK A. MILLEY
                                                           Lieutenant General, USA
                                                           Deputy Commander, Unit d States Forces - Afghanistan




                                                 NATO/ISAF UNCLASSIFIED




SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                 Page 18
                                        SIGAR’s Response to Comments from USFOR-A
1. See comment 2.

2. Based on USFOR-A’s comment and our review of the referenced fragmentary order, we agree that the
   recommended guidance has been provided to the advisor teams. We have deleted the recommendation
   and revised the report as appropriate. For example, we revised the title to reflect the deletion of the
   recommendation.

3. The document USFOR-A describes in its comments would largely satisfy our recommendation. We will
   follow up with USFOR-A to review this document once it has been completed and determine at that time if
   our recommendation has been implemented.

4. As noted in our report, our first objective was specifically to assess the extent to which ISAF’s tool for
   evaluating the manning, training, and equipping capacity of the ANSF—the CUAT—was consistently applied
   to assess ANSF units. We were not informed officially until late August 2013 that IJC had replaced the
   CUAT with the RASR. Despite having already completed our fieldwork, we revised our draft report to include
   information on the RASR in an effort to recognize the steps IJC had taken to improve its assessment
   efforts, particularly in light of the drawdown of coalition forces. Although IJC stopped using the CUAT in
   June 2013, IJC’s response to SIGAR’s prior audit of ANSF capability assessments suggests that our
   findings are still relevant to the improvement of the assessment process. 34 In particular, shortly before the
   completion of our 2010 audit of IJC’s assessments of the ANSF, the command introduced a new unit
   assessment tool—the CUAT—that replaced the CM tool. However, that particular change in assessment
   tools did not negate the importance of our findings on the CM because, in responding to that report, IJC
   stated it would address our findings and recommendations as part of its implementation of the CUAT.
   Similarly, the findings in our current report are relevant to the RASR and any future ANSF assessments
   tools because they inform IJC of weaknesses with the CUAT. This information could enable the command
   to take actions to prevent these weaknesses from resurfacing. Finally, we do not suggest that the CUAT
   and its successor the RASR are the only sources of information used to assess the ANSF’s capabilities. Our
   draft report clearly noted that IJC used the results of the assessments along with other information, such
   as battlefield reporting, informal commander’s assessments, and ISAF’s assessments of the Ministries of
   Defense and Interior, to develop an overall assessment of the ANSF’s operational effectiveness and
   readiness. Although the RASR, and the CUAT before it, is not the only information that feeds into IJC’s
   overall assessment of the ANSF, it is a tool for regularly collecting a standardized set of information on the
   capability of ANSF units. As such, an evaluation of the tool still has merit in providing information on ISAF’s
   and IJC’s assessment efforts.




34   SIGAR Audit 10-11, Actions Needed to Improve the Reliability of Afghan Security Force Assessments, June 29, 2010.


SIGAR 14-33-AR/ANSF Capacity Assessments                                                                                 Page 19
APPENDIX V - ACKNOWLEDGMENTS

Gabriele Tonsil, Senior Audit Manager
Spencer Tacktill, Analyst-in-Charge
Angelina Johnston, Senior Auditor
Karyn Mallette, Senior Auditor


The following staff provided technical support:
Mia Bonarski, Methodologist
Davi D’Agostino, Senior Advisor
LtGen (Ret.) John Goodman, Subject Matter Expert
Matthew Miller, Senior Program Analyst
Joe Windrem, Subject Matter Expert, Research and Analysis Directorate




SIGAR 14-33-AR/ANSF Capacity Assessments                                Page 20
                               This performance audit was conducted
                                  under project code SIGAR-079A.




SIGAR 14-33-AR/ANSF Capacity Assessments                              Page 21
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
